                      U.S. DEPARTMENT OF ENERGY
                     OFFICE OF INSPECTOR GENERAL




                   AUDIT OF DEPARTMENT OF ENERGY'S

                CONTRACTOR LIABILITY INSURANCE COSTS




The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as possible.
 Therefore, this report will be available electronically through
    the Internet five to seven days after publication at the
                following alternative addresses:

              Department of Energy Headquarters Gopher
                          gopher.hr.doe.gov

           Department of Energy Headquarters Anonymous FTP
                         vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home Page
               http://www.hr.doe.gov/refshelf.html

  Your comments would be appreciated and can be provided on the
         Customer Response Form attached to the report.

                This report can be obtained from the
                      U.S. Department of Energy
           Office of Scientific and Technical Information
                            P.O. Box 62
                     Oak Ridge, Tennessee 37831




Report No.: IG-0396                       Capital Regional Audit Office
Date of Issue: September 13, 1996         Germantown, Maryland 20874

United States Government
Department of Energy
memorandum

DATE:           September 13, 1996

REPLY TO
 ATTN. TO:     IG-1

SUBJECT:       INFORMATION: "Audit of Department of Energyms
               Contractor Liability Insurance Costs"

TO:            The Secretary


BACKGROUND:

         Fifty-four of the Department's major contractors
      reported expending $44.3 million in liability insurance
      costs for the last 3 completed years of operation.
      This included $23 million for comprehensive general
      liability insurance and $5.6 million for automobile
      liability insurance. Also, some contractors reported
      having other types of liability insurance costing $15.7
      million. The purpose of this audit was to evaluate how
      the Department implemented its policy to assume the
      risk of losses for its contractors rather than to
      insure them through commercial insurers.

DISCUSSION:

         The Department's general policy is to assume the
      risk of allowable losses or liabilities for its
      contractors and it currently has a liability insurance
      program in place to assume this risk. Contractors are
      required to use self-insurance if combined annual
      premiums for commercial insurance exceed $10,000.
      However, a review of 18 major contractors showed that
      the Department was not consistently following its
      policy and that the contractors which used commercial
      insurance incurred higher costs. In addition, a
      separate review showed that required approvals were not
      always obtained prior to purchasing certain other types
      of liability insurance. We recommended that the
      Departmentms policies requiring self-insurance be fully
      implemented; that requests for approval for commercial
      insurance when annual premiums exceeded $10,000 be
      fully justified; and, that the commercial insurance
      policies specifically define the liability coverage
      prior to approval and payment. We also recommended
      that the contracts include clauses limiting
      reimbursements for insurance expenditures to actual
      losses and administrative costs.



             The Deputy Assistant Secretary for Procurement
      and Assistance Management generally concurred with the
      finding and recommendations, and provided a series of
      actions that were planned.



                      (Signed)
                     John C. Layton
                     Inspector General

   Attachment

   cc:      Deputy Secretary
            Under Secretary
            Assistant Secretary for Human Resources and
              Administration
            Deputy Assistant Secretary for Procurement and Assistance
              Management
            Director, Office of Contractor Human Resource Management
            Director, Office of Resource Management and Services



                    AUDIT OF DEPARTMENT OF ENERGY'S
                 CONTRACTOR LIABILITY INSURANCE COSTS


                           TABLE OF CONTENTS


                                         Page


SUMMARY..........................................................1

PART I -       APPROACH AND OVERVIEW................................2

Introduction.....................................................2

Scope and Methodology............................................2

Background.......................................................4

PART II -      FINDING AND RECOMMENDATIONS..........................5

Liability Insurance Coverage.....................................5

PART III -     MANAGEMENT AND AUDITOR COMMENTS.....................11
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES

                 AUDIT OF DEPARTMENT OF ENERGY'S
              CONTRACTOR LIABILITY INSURANCE COSTS


Audit Report Number:   DOE/IG-0396

                              SUMMARY


  The Department of Energy (Department) uses contractors to
operate its facilities and pays the costs incurred by these
contractors. During the last 3 completed years of operation, 54
of its major contractors reported that they incurred and were
reimbursed about $44.3 million for liability insurance costs.

  The purpose of the audit was to evaluate how the Department
implemented its policy to assume the risk of allowable losses or
liabilities for its contractors rather than to insure them
commercially.

  The Department currently has a liability insurance program to
assume the risk of allowable losses for its contractors. A
review of 18 major contractors, for the last 3 completed years of
operation, showed that the Department was not consistently
following this policy. As a result, the contractors which used
commercial insurance incurred higher costs. In addition, a
separate review showed that required approvals were not always
obtained prior to purchasing other types of liability insurance.
If contracting officers had required contractors to follow
Department policies during the last 3 completed years of
operation, the Department could have avoided expenditures of
about $14 million.

  We recommended that the Department follow its policies to
assume the risk of allowable losses or liabilities for its
contractors and that contractors be required to obtain approval
from Headquarters for commercial insurance when annual premiums
exceeded $10,000. We also recommended that the contracts include
clauses that limited reimbursements for insurance expenditures to
actual losses and administrative costs.

  Management generally concurred with the audit finding and
recommendations.



(signed)________

Office of Inspector General

                              PART I
                        APPROACH AND OVERVIEW


INTRODUCTION

  The Department of Energy uses contractors to operate its
facilities and reimburses all costs except those which are
specifically unallowable or determined to be unreasonable. In
keeping with a long established policy of minimizing these
contractor costs, the Department's general policy is to assume
the risk of allowable losses or liabilities for its contractors.
This policy is based on the theory that the magnitude of the
Government's resources, with its many facilities and a wide
geographic dispersion, makes it cost advantageous for the
Government to assume its own risks rather than to insure them
commercially.

  Throughout this report we refer to Departmental policies that
require its contractors to either self-insure or use self-
insurance to protect against certain losses. This is intended to
mean that the contractors should use one of the options described
in this report in which the Department assumes the risk of
allowable losses.

  We did not, as part of this audit effort, evaluate the current
status of the Departmentms policy regarding assumption of risk by
its contractors. Rather, our focus was on determining how the
Department implemented an appropriate system of self-insurance
once it had opted to accept certain risks. During the last 3
completed years of operation, 54 of its major contractors
(management and operating, major environmental restoration,
construction management, and support service contractors)
reported that they incurred and were reimbursed liability
insurance costs totaling about $44.3 million. Our objective was
to determine if the Department self-insured its contractors.

SCOPE AND METHODOLOGY

  To accomplish our objective, we obtained and reviewed
applicable Federal and Departmental regulations and
correspondence related to contractor liability insurance. We
also reviewed related reports issued by the Office of Inspector
General and the General Accounting Office. We held discussions
with staff from the Office of Contractor Management and
Administration on policies designed to provide oversight and
control over liability insurance expenditures.
  Using a questionnaire, we obtained information on the types of
liability insurance, premium amounts, losses, and refunds, where
applicable, from the operations/field offices for 54 of the
Department's major contractors for the last 3 completed years of
operation. The last 3 completed years were calendar, fiscal, or
insurance policy period and were determined by the available
records of each contractor. These contractors reported liability
insurance costs including premiums, losses, and deductibles of
about $44.3 million. Forty-five of the contractors reported
having comprehensive general liability insurance at a cost of $23
million, and 48 reported having automobile liability insurance
costing $5.6 million. Also, 15 contractors reported having other
types of liability insurance costing $15.7 million.

  We judgmentally selected 18 of these 54 contractors for a more
detailed review. The review was limited to comprehensive general
liability and automobile liability insurance. We verified the
data provided by these contractors by obtaining and analyzing
available supporting documentation.

Our analysis of the 18 contractors included:

   * Determining if contractors had commercial or self-insurance
     liability coverage.

   * Verifying the amount reimbursed to the contractors for
     insurance premiums and losses for liability
     insurance for the last 3 completed years of operation.

   * Determining if contracts contained clauses that limited
     reimbursements for insurance expenditures to actual
     losses and administrative costs.

  We also selected for review all 15 of the 54 contractors which
reported having other types of liability insurance. Our analysis
included determining the types and amounts of other liability
insurance and determining if required approvals were obtained
prior to procuring this insurance. The other types of liability
insurance reported included fidelity/crime, fiduciary, medical
malpractice, directors' and officers', and pollution.

  In addition to obtaining information and conducting telephonic
discussions with responsible officials, we made site visits to
three contractors. These contractors and locations were: Mason
and Hanger in Amarillo, Texas; Kaiser-Hill in Golden, Colorado;
and Lockheed-Martin in Oak Ridge, Tennessee.

  The audit was made in accordance with generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed internal controls regarding
expenditures for liability insurance. Because our review was
limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed.

  The audit was performed between October 1995 and February 1996.
We did not rely on computer-processed data to accomplish our
audit objective. A formal exit conference was waived by the
Director, Office of Contractor Management and Administration, on
July 23, 1996.

BACKGROUND

  The Department's contractors do not operate in the competitive
environment which is typical of most private-sector firms. In
general, the Department reimburses all costs incurred under the
contracts unless they are specifically unallowable or determined
to be unreasonable.

  DOE Order 3890.1A defines self-insurance as a method of dealing
with losses, with or without advance funding, and with no
transfer of risk to a third party (i.e. an insurance company).
The Order defines two methods of self-insurance. Under the first
method, contractors self-insure using their own personnel to
service claims and they do not incur costs unless there is a
claim. Under the second method, contractors use a plan commonly
referred to as retrospective insurance where the final premium is
based on actual losses paid during the year. The retrospective
plan includes an amount for estimated losses based on prior claim
experience, an administrative processing fee, and a fixed amount
for profit. If the estimated premiums are more than actual
losses, the Department receives a refund. However, if actual
losses exceed estimated premiums, the difference will be paid by
the Department.

  The Order prescribed that the contractor would procure and
maintain bonds and insurance as required by the written direction
of the contracting officer. The Order also required contractors
to use self-insurance if the combined annual premiums for
commercial insurance exceeded $10,000. Departures from this self-
insurance requirement required justification to and approval by
the Headquarters, Office of Contractor Management and
Administration.

  In March 1996, the Department engaged the services of a Third
Party Administrator (TPA) to handle and administer contractor
liability claims. The TPA would service all cost-type
contractors and others as directed by a contracting officer and
would charge a fixed cost per claim. Use of the TPA is advocated
by the Office of Contractor Management and Administration. The
Department expects savings to be achieved if its contractors use
the newly initiated TPA mechanism to administer claims.

  This report contains a finding that addresses liability
insurance coverage that should be considered by management in
preparing the yearend assurance memorandum on management
controls. Part II of this report provides details on our finding
and recommendations. Part III of this report includes detailed
management and auditor comments.

                                PART II

                      FINDING AND RECOMMENDATIONS

                  Liability Insurance Coverage

FINDING

  The Government has a long established policy of insuring itself
against losses or liabilities. By applying the practice of self-
insurance to its major contractors, the Department only
reimburses the cost of allowable losses arising out of contractor
operations and related administrative costs. The Department was
not consistently self-insuring its contractors and the
contractors which used commercial insurance incurred higher
costs. Specifically, the Department did not: (1) implement its
policies requiring contractors to be self-insured; (2) always
require contractors to justify and obtain approval from
Headquarters prior to purchasing commercial insurance or other
types of liability coverage; (3) require the terms of the
liability insurance policy coverage to be specifically defined;
and (4) include clauses in its contracts that limited
reimbursements for insurance expenditures to actual losses and
administrative costs. During the last 3 completed years, if
contracting officers had required contractors to use self-
insurance and enforced Department policies, about $14 million in
expenditures could have been avoided.

RECOMMENDATIONS

  We recommend the Deputy Assistant Secretary for Procurement and
Assistance Management, in conjunction with the managers of the
Department operations offices and other field or site offices:

     * Implement DOE Order 3890.1A by requiring contractors to use
     self-insurance when total annual premiums exceed $10,000, unless
     justified as cost effective and approved in writing by the Office
     of Contractor Management and Administration.

     * Require contracts to include clauses that limit reimbursements
     for insurance expenditures to actual losses and administrative
     costs, unless the Office of Contractor Management and
     Administration has approved the use of commercial insurance.

      * Ensure that commercial insurance policies clearly define
     liability coverage prior to approval and payment.

      * Require contracting officers to review and determine if the
      other types of liability insurance coverage, as defined in DOE
      Order 3890.1A, are allowable and take appropriate action to
      recoup any unallowable costs.

MANAGEMENT REACTION

  The Deputy Assistant Secretary for Procurement and Assistance
Management generally concurred with the recommendations.

                       DETAILS OF FINDING

INSURANCE POLICIES

  The Government has a long established policy of self-insuring
itself against losses or liabilities. This policy of self-
insurance is based on the theory that the magnitude of the
Government's operations and its resources, makes it cost
advantageous for the Government to assume its own risks rather
than to insure them through commercial insurers. Currently, the
Department has an insurance program where it assumes the risk of
allowable losses for contractors who manage and operate the
Department's facilities.
  Although there is no statutory requirement for the Government
to self-insure its contractors, the Government's policy for self-
insurance is embodied in Congressional and Comptroller General
decisions. Comptroller General decision B-7067 prescribes that
the Government assume its own risks. The decision also
prescribes that it is difficult to conceive of a person,
corporation, or legal entity better prepared to carry insurance
or sustain a loss than the United States Government.

  Federal Acquisition Regulation (FAR) 28.3 entitled, "Insurance"
requires contractors to purchase liability insurance or self-
insure for the risk to which they are exposed. According to the
Department of Energy Acquisition Regulation (DEAR) Subpart 950.71-
General Contract Authority Indemnity, the Department is
authorized general contract authority to enter into indemnity
agreements with its contractors to relieve them of risk. Under
the authority, Department contractors are protected against risk
of liability and covered for the costs of allowable losses, which
are limited to the amount of funds appropriated to the
Department.

  These acquisition regulations are reinforced by DOE Order
3890.1A which prescribes that the Government assumes the risk of
loss arising out of contractor operations. The Order also
requires contractors to use self-insurance if combined annual
premiums for commercial insurance exceeded $10,000. Any
deviations from this self-insurance requirement must be justified
and approved by the Office of Contractor Management and
Administration.

  The Order prescribes that certain other liability insurance
coverages including professional, directors' and officers',
business interruption and "extra expense" liability insurance are
unallowable. Exceptions to this policy also must be justified
and approved by the Office of Contractor Management and
Administration.

CONTRACTOR INSURANCE COVERAGE

  The Department did not consistently enforce the requirement
that its contractors self-insure. We reviewed insurance coverage
at 18 of the 54 major contractors. The review showed that 13 had
comprehensive general liability insurance costing $6.8 million.
Of these 13 contractors, 9 had self-insurance and 4 had procured
commercial insurance policies. Also, 16 of the 18 contractors
had automobile liability insurance costing $1.1 million. Eleven
of the 16 contractors had self-insurance and 5 procured
commercial insurance policies. Audit results showed that
contractors which procured commercial insurance incurred
significantly higher costs.

  In addition, a separate review was performed for 15 of the 54
contractors which reported procuring other types of liability
insurance costing approximately $15.7 million. The necessary
approvals were not always obtained prior to purchasing some of
this insurance. All of the above costs were for the last 3
completed years of operation.
Comprehensive General Liability Insurance

  Comprehensive general liability insurance typically covers
third party bodily injury and property damage. For the last 3
completed years, premium and loss reimbursements for the 13
contractors totaled $6.8 million as shown below.

                Comprehensive General Liability Insurance

          Type of                Number of              Cost of
          Insurance              Contractors            Insurance

          Self                      9                $500,000
          Commercial                4               6,300,000
          Totals                   13              $6,800,000

  For the last 3 completed years, the contractors which purchased
commercial policies did not report any losses. The above chart
shows that contractors which purchased commercial insurance
incurred significantly higher costs than those who self-insured.

  Furthermore, through discussions with contracting officers, we
determined that 3 of the 4 contractors did not prepare
justifications that included a cost benefit analysis when
premiums exceeded $10,000 or did not have the proper approval to
purchase commercial comprehensive general liability insurance.

Automobile Liability Insurance

  Automobile liability insurance included coverage for third
party bodily injury and property damage. The policy was usually
written to cover all motor vehicles, regardless of ownership,
used in contract operations when use was not limited exclusively
to the premises on which the work was performed. For a 3-year
period, 16 contractors reported costs of about $1.1 million for
automobile liability premium and loss reimbursements as follows.

                 Automobile Liability Insurance

          Type of      Number of            Cost of
          Insurance    Contractors          Insurance

          Self              11          $  242,000
          Commercial         5             858,000
          Totals            16          $1,100,000

  For the 5 contractors that procured commercial policies,
reported losses were about $528,000. Therefore, taking these
losses into account, the Department could have avoided $330,000
in automobile liability insurance. Moreover, only 2 of the 5
contractors received the required approval from the Office of
Contractor Management and Administration to purchase commercial
automobile liability insurance.

Other Liability Insurance
  The Department reimbursed contractors for costs incurred in
procuring liability insurance other than comprehensive general
and automobile. Fifteen of the 54 contractors reported procuring
other liability insurance and were reimbursed about $15.7 million
in premium costs.

  DOE Order 3890.1A prescribes that directors' and officers'
liability, professional liability, business interruption, and
"extra expense" insurance were unallowable except if authorized
by the Office of Contractor Management and Administration. Only
5 of the 15 contractors reported procuring other liability
insurance that required Headquarters approval. None of the five
contractors had approval from the Office of Contractor Management
and Administration to procure other types of liability insurance.
For the last 3 completed years, the five contractors were
reimbursed $7.4 million in premiums.

CONTRACT ADMINISTRATION

  The Department did not always implement its policies requiring
contractors to be self-insured or to justify and obtain
Headquarters approval for commercial insurance when premiums
exceeded $10,000. Contractors were allowed to obtain insurance
without waiting for comment or approval from the Office of
Contractor Management and Administration. Further, commercial
insurance was being procured without having the coverage
specifically defined. In addition, contracts did not include
clauses that limited reimbursements for insurance expenditures to
actual losses and administrative costs.

  Approval of Insurance

  At one of the sites we visited, the contractor was allowed to
procure a commercial liability insurance package with annual
premiums of $5.6 million without proper approval from
Headquarters. This package required justification and approval
by the Office of Contractor Management and Administration prior
to purchase. After a review of this policy, the contracting
officer was informed that, unless the contractor had already been
directed in writing to purchase the insurance, the insurance
package should not be approved. However, the contracting officer
did not wait for comment or approval before allowing the
contractor to purchase this insurance package.

  Defined Insurance Coverage

  The Department allowed the same contractor, discussed above, to
procure commercial insurance without having the liability
coverage specifically defined. In June 1995, the contractor had
acquired pollution/professional liability insurance at a cost of
$3.8 million annually. When the original policy was issued, it
did not specifically define what was covered. As of March 1996,
there had been no resolution of these issues. However, the
contractor was reimbursed the $3.8 million by the Department even
though there was no agreement as to what the coverage included.
There were no claims against this policy during this period.
  Contract Clauses

  DEAR 950.71, General Contract Authority Indemnity, and FAR
28.3, Insurance, permit the Department to limit insurance
reimbursements to the cost of actual losses and administrative
costs, up to the availability of appropriated funds. However,
none of the 18 contracts reviewed included these clauses to limit
reimbursements to contractors. If the Department had limited
these reimbursements the contractors would, in effect, have been
self-insured. Instead, the contracts included clauses allowing
contractors to procure and maintain insurance as required by the
written direction of the contracting officer. The cost
implications of these decisions were significant. For example,
our review of 18 contractors showed that they were reimbursed
$7.2 million in premiums for commercial comprehensive general and
automobile liability insurance policies. However, reported
losses were only $528,000. Therefore, the Department could have
avoided about $6.7 million in expenditures if these contracts had
included the appropriate clauses that limited reimbursements to
actual losses and administrative costs.

  Through discussions with the Office of Contractor Management
and Administration, it was determined that contracting officers
were interpreting Federal and Department regulations to mean all
insurance costs are allowable. A cognizant official stated that
since insurance is not one of the unallowable costs per the DEAR
and FAR, contractors could be reimbursed for insurance costs.

IMPACT OF CURRENT INSURANCE ADMINISTRATION

  Based on the results of the audit, contractor insurance costs
could have been reduced by about $14 million if contracting
officers had extended the Government's policy of self-insurance
to its major contractors. Five of the 18 contractors reviewed,
purchased commercial comprehensive general and automobile
liability insurance. The Department could have avoided $6.7
million in expenditures (excluding losses incurred) if these
contractors had been required to self-insure and had the
contracts included the required clauses that limited
reimbursements to actual losses and administrative costs. The
Department could have avoided expending an additional $7.4
million in other liability insurance costs if contracting
officers had enforced compliance with Department regulations.

                            PART III

                 MANAGEMENT AND AUDITOR COMMENTS

  In response to this report, the Deputy Assistant Secretary for
Procurement and Assistance Management generally concurred with
the recommendations. A summary of management's comments and our
response follows.

  Recommendation 1. Implement DOE Order 3890.1A by requiring
contractors to use self-insurance when total annual premiums
exceed $10,000, unless justified as cost effective and approved
in writing by the Office of Contractor Management and
Administration.

  Management Comments. Concur. The Deputy Assistant Secretary
for Procurement and Assistance Management will issue a
Headquarters letter to all field element directors that will
emphasize use of the Department's new Third Party Administrator
(TPA) support services contract when commercial insurance
premiums exceed $10,000. The letter will highlight the policy in
DOE Order 3890.1A and emphasize the documentation required for
approval of commercial insurance. The field offices will be
required to notify the Office of Contractor Management and
Administration in writing or by E-mail that they have policies
and/or procedures in place to ensure commercial insurance
purchase reviews are made and properly documented before
approvals are given.

  Auditor Comments.   Management's comments are responsive to the
recommendation.

  Recommendation 2. Require contracts to include clauses that
limit reimbursements for insurance expenditures to actual losses
and administrative costs, unless the Office of Contractor
Management and Administration has approved the use of commercial
insurance.

  Management Comments. Concur. The Office of Contractor
Management and Administration will work with the General Counsel
and other field element offices to draft contract language that
will limit the cost of self-insurance to approved claim expenses
plus administrative costs. The new contract language will be
included in all appropriate Requests for Proposal when it is
complete.

  Auditor Comments.   Management's comments are responsive to the
recommendation.

  Recommendation 3. Ensure that commercial insurance policies
clearly define liability coverage prior to approval and payment.

  Management Comments. Concur in principle. Management stated
that commercial insurance companies normally use standard
industry clauses, and it is unlikely that the Department would
have any success at dictating changes to these standard clauses.
The soon to be released order, DOE Order 350.1, will stipulate
that the Head of Contracting Activity is responsible for ensuring
that commercial insurance policies, when allowed, clearly define
the liability coverage and are documented as cost effective prior
to approval and payment. In the interim, the Head of Contracting
Activity will be directed to comply with the spirit and intent of
the new Order as a good business practice. The Head of
Contracting Activity will be required to notify the Office of
Contractor Management and Administration of the policy and/or
procedures they put in place to satisfy this new requirement.

  Auditor Comments.   Management's comments are responsive to the
recommendation.
  Recommendation 4. Require contracting officers to review and
determine if the other types of liability insurance coverage as
defined in DOE Order 3890.1A are allowable and take appropriate
action to recoup any unallowable costs.

  Management Comments. Concur. The Deputy Assistant Secretary
for Procurement and Assistance Management will establish a
requirement for the Head of Contracting Activity to direct their
responsible contracting officers to conduct a review of their
contractors commercial insurance programs to determine if any of
the commercial insurance is unallowable under the terms of the
contract. Contracting officers will be directed to take
appropriate action to recoup any unallowable costs. The Head of
Contracting Activity will be required to notify the Office of
Contractor Management and Administration in writing or by E-mail
that the review has been completed and provide results of the
review.

  Auditors Comments.    Management's comments are responsive to the
recommendation.
                                      IG Report No.DOE/IG-0396




                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make
our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions
if they are applicable to you:

     1.   What additional background information about
          the selection, scheduling, scope, or
          procedures of the audit or inspection would
          have been helpful to the reader in
          understanding this report?

     2.   What additional information related to
          findings and recommendations could have been
          included in this report to assist management
          in implementing corrective actions?

     3.   What format, stylistic, or organizational changes
          might have made this report's overall message more
          clear to the reader?

     4.   What additional actions could the Office of
          Inspector General have taken on the issues
          discussed in this report which would have been
          helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your
comments.

Name ____________________________   Date_____________________

Telephone _______________________   Organization_____________

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may
mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
